Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





FRAUD AND ABUSE SAFEGUARDS 

IN SEPARATE STATE CHILDREN’S 

HEALTH INSURANCE PROGRAMS





                    Daniel R. Levinson

                     Inspector General 


                       March 2007

                     OEI-06-04-00380

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                       S U M M A R Y                           



                  OBJECTIVES
                  1. To assess the extent to which six selected States with separate
                  State Children's Health Insurance Programs (SCHIP) have
                  established methods and procedures to meet Federal requirements
                  regarding SCHIP fraud and abuse prevention, detection, and
                  investigation; and

                  2. To assess these States’ oversight of SCHIP contractors and Centers
                  for Medicare & Medicaid Services’ (CMS) oversight of States
                  regarding SCHIP fraud and abuse prevention, detection, and
                  investigation in the six selected States.


                  BACKGROUND
                  Federal and State governments jointly fund SCHIPs to provide health
                  care assistance to low-income children who do not qualify for Medicaid.
                  States may structure SCHIP as an expansion of Medicaid, as a program
                  separate from Medicaid, or as some combination of these. Thirty-nine
                  States have all or some part of their SCHIP separate from Medicaid. To
                  protect the integrity of these separate SCHIPs, Federal regulations
                  require States to establish safeguards against fraud and abuse.
                  However, little is known about the arrangements these States have
                  made to establish fraud and abuse safeguards.

                  To determine the extent to which States have met requirements to
                  establish fraud and abuse safeguards, we examined documentation and
                  interviewed staff from 6 States with separate SCHIPs and 17 health
                  plans contracted by these selected States. Using this material, we also
                  assessed State oversight of separate SCHIP contractors regarding fraud
                  and abuse issues. Finally, we assessed CMS oversight by interviewing
                  staff of CMS central and regional offices and by reviewing
                  documentation regarding CMS’s onsite compliance reviews of the
                  selected SCHIPs and other oversight mechanisms.


                  FINDINGS
                  The six selected States met requirements for prevention and detection
                  of fraud and abuse by assigning responsibility to SCHIP contractors
                  that have established such procedures. Each of these States has
                  assigned to SCHIP health plans or administrative contractors
                  responsibility for establishing safeguards through which fraud and abuse


OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S       i
E X E C U T I V E                  S U     M M A R Y
Δ    E X E C U T I V E                       S U M M A R Y                           


                   might be prevented or detected, including safeguards associated with
                   beneficiary eligibility and enrollment, provider enrollment, and detection
                   of fraud and abuse. In each of the six States selected, these contractors
                   have established safeguards that meet the Federal requirements in these
                   areas.
                   One of the six States has not met Federal requirements for
                   investigating suspected SCHIP fraud and abuse cases and referring
                   cases to law enforcement. Five of the six States have established
                   procedures to meet Federal investigation and referral requirements, and
                   one State has not. In this State, SCHIP staff reported that the State has
                   not identified a State law enforcement entity that will accept SCHIP-only
                   fraud and abuse cases. State staff would not investigate such cases
                   because they would not be prosecuted even if fraud were substantiated.
                   Although oversight mechanisms in the six States address Federal
                   requirements, they do not always enable States to know how well
                   health plans are performing safeguard activities. All six States in our
                   review require SCHIP health plans to establish and submit written plans
                   for the prevention, detection, and investigation of fraud and abuse; to
                   attest to the accuracy of claims for payment; and to provide the State
                   access to relevant SCHIP data. All of these States also have procedures to
                   conduct audits of beneficiary eligibility processes and enrollment data.
                   However, the current level of these States’ oversight of SCHIP contractors
                   does not always provide States with the means to know how well health
                   plans are performing on some critical fraud and abuse matters, including
                   provider enrollment, detection of fraud and abuse, investigation and
                   referral to law enforcement, service delivery to beneficiaries, and execution
                   of fraud and abuse plans. Further, it appears that dispersal of SCHIP
                   oversight responsibilities within States and State staff perceptions about
                   limited exposure to fraud and abuse may inhibit State oversight of SCHIP
                   health plans regarding fraud and abuse safeguards.
                   CMS relies primarily on States for oversight of SCHIP fraud and
                   abuse safeguards, although it has completed some onsite reviews
                   of States. The SCHIP statute allows CMS discretion regarding Federal
                   oversight of separate SCHIP fraud and abuse safeguards, neither
                   prescribing nor prohibiting particular oversight activities. In
                   interviews, CMS officials expressed that, rather than being prescriptive
                   regarding oversight of fraud and abuse activities, SCHIP’s statute and
                   regulations focus on “programmatic oversight at the Federal level.”
                   According to CMS officials, SCHIP has limited exposure to fraud and


 OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S        ii
E X E C U T I V E                  S U     M M A R Y


                   abuse because Federal allotments are capped and managed care
                   arrangements provide protections against fraud and abuse.

                   Despite its reliance on States for oversight, CMS has used its authority
                   to conduct onsite reviews of separate SCHIP fraud and abuse
                   safeguards. Since SCHIPs were established in 1997, CMS has
                   conducted at least one onsite review that included some aspect of fraud
                   and abuse safeguards for five of the six States we reviewed. However,
                   these onsite reviews typically examined only a few fraud and abuse
                   issues. Further, although CMS cited five of these States during these
                   onsite reviews for having insufficient fraud and abuse safeguard
                   procedures reviews, CMS staff reported requiring execution of a
                   corrective action plan for only one of the five States. CMS used less
                   formal follow-up methods, such as telephone conversations, in the other
                   four States in which problems were noted.


                   RECOMMENDATIONS
                   To address the noncompliance by one State identified in this report, as
                   well as other potential areas of improvement, CMS should:

                   o	      Ensure that the noncompliant State institutes procedures to
                           meet Federal requirements for investigating cases of suspected
                           SCHIP fraud and abuse and referring cases to law enforcement,
                           and

                   o	      Take steps to strengthen Federal and State oversight of
                           separate SCHIPs’ fraud and abuse safeguards.


                   AGENCY COMMENTS
                   In its comments to the draft report, CMS stated that it does not dispute
                   the findings in the report and suggested clarifying language to
                   emphasize that the SCHIP statute is not prescriptive in describing
                   Federal oversight of fraud and abuse. CMS also noted its recent efforts
                   to assist States in strengthening fraud and abuse efforts.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We made changes to the final report to clarify that the SCHIP statute
                   allows CMS discretion regarding its oversight of SCHIP fraud and
                   abuse activities, neither prescribing nor prohibiting particular oversight
                   activities.


 OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S       iii
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 6

                   Six sample States met requirements for preventing and detecting 

                   fraud and abuse by assigning responsibilities to contractors . . . . . 6 


                   One of the six States has not met requirements for investigation 

                   and referral of suspected fraud and abuse cases . . . . . . . . . . . . . . . 8 


                   Oversight in six States addresses requirements, but does not always 

                   enable States to know how well health plans perform . . . . . . . . . 10 


                   CMS relies primarily on States for oversight of separate SCHIP 

                   fraud and abuse safeguards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 




         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 

                   A: Expanded Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                   B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32 

Δ   I N T R O D U C T I O N                                      



                  OBJECTIVES
                  1. To assess the extent to which six selected States with separate
                  State Children's Health Insurance Programs (SCHIP) have
                  established methods and procedures to meet Federal requirements
                  regarding SCHIP fraud and abuse prevention, detection, and
                  investigation; and

                  2. To assess these States’ oversight of SCHIP contractors and Centers
                  for Medicare & Medicaid Services’ (CMS) oversight of States,
                  regarding SCHIP fraud and abuse prevention, detection, and
                  investigation in the six selected States.


                  BACKGROUND
                  The Balanced Budget Act of 1997 established SCHIP under Title XXI of
                  the Social Security Act.1 To implement SCHIP, Congress appropriated
                  nearly $40 billion over 10 years to help States provide health care
                  assistance to uninsured, low-income children whose family income is too
                  high to qualify for Medicaid. The Federal and State governments jointly
                  finance the program and States are provided a capped allotment of
                  Federal funds each year. States administer their SCHIPs and CMS
                  provides Federal oversight.

                  Title XXI allows States to design their SCHIPs using one of three
                  program options: a Medicaid expansion program, a separate SCHIP
                  program, or a combination of both. Medicaid expansion programs,
                  which relax the financial rules of existing Medicaid eligibility
                  categories, are subject to Federal and State Medicaid requirements. In
                  contrast, Federal requirements that govern separate SCHIPs allow
                  States more flexibility in eligibility criteria; cost sharing; and type,
                  amount, and scope of services covered. In 39 States, all or some part of
                  SCHIP is separate from Medicaid.
                  Federal Fraud and Abuse Safeguard Requirements
                  Federal regulations regarding fraud and abuse safeguards differ among
                  the Medicaid program and separate SCHIPs. Medicaid expansion
                  programs are subject to the program integrity rules and requirements
                  specified under Title XIX.2 Safeguards for Medicaid are more
                  structured. They include Medicaid Eligibility Quality Control reviews
                  of beneficiary enrollment processes;3 tools for detecting fraud and abuse
                  in provider billing, e.g., Medicare-Medicaid data match4 and State
                  Surveillance Utilization Review Subsystems;5 Medicaid Fraud Control

OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S       1
I N T R O D        U C T          I O N


                    Units to investigate and prosecute cases of suspected fraud and abuse;6
                    External Quality Reviews of Medicaid managed care entities;7 and the
                    recently created Medicaid Integrity Program.8
                    By contrast, Federal regulations for separate SCHIPs allow States
                    considerable flexibility in how they safeguard their programs against
                    fraud and abuse. Separate SCHIPs are not required to have equivalent
                    Medicaid structures. Rather, as a general Federal requirement, States
                    “must establish procedures for ensuring program integrity and
                    detecting fraudulent or abusive activity” in separate SCHIPs.9 Further,
                    Federal regulations contain a number of standards related to
                    safeguarding SCHIPs from fraud and abuse, but these regulations
                    typically do not specify the procedures States should use to meet the
                    requirements. States are allowed, but not required, to establish a
                    program integrity unit for monitoring and maintaining the integrity of
                    separate SCHIPs.10
                    Federal regulations relevant to safeguarding against fraud and abuse in
                    separate SCHIPs include provisions regarding criteria for beneficiary
                    eligibility and enrollment in SCHIP,11 rules regarding provider
                    participation in SCHIP,12 and requirements for States and their health
                    plan contractors to have structures to detect potential fraud and
                    abuse.13 Federal regulations also address investigation of suspected
                    SCHIP fraud and abuse cases and their referral to law enforcement.14
                    Additionally, Federal regulations address program oversight, including
                    States’ oversight of SCHIP contractors15 and CMS’s oversight of States
                    regarding SCHIP.16
                    Oversight of Separate SCHIPs
                    By Federal law and regulations, States and CMS share responsibility
                    for oversight of SCHIP fraud and abuse prevention, detection, and
                    investigation.

                    States must ensure that SCHIP health plans have arrangements or
                    procedures designed to safeguard against fraud and abuse and to verify
                    the accuracy of health plan claims for payment. In this report, the term
                    “health plans” refers to a variety of entities that these six States have
                    contracted with to provide health care services to SCHIP beneficiaries,
                    including fee-for-service insurance plans and managed care plans.
                    States must also safeguard against potential fraud and abuse by SCHIP
                    health plans themselves.17 Federal regulations also contain a number of
                    provisions regarding State contracts with health plans.18 Federal
                    regulations provide States flexibility to design procedures for ensuring

 OEI-06-04-00380    FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S      2
I N T R O D        U C T          I O N


                    program integrity and detecting fraud and abuse that are based upon
                    the needs of their unique SCHIP programs.19 This flexibility allows
                    States to use a variety of methods in establishing their procedures,
                    including contractually assigning certain responsibilities to SCHIP
                    health plans or other contractors.

                    Federal regulations provide CMS with three tools for oversight of
                    SCHIPs’ fraud and abuse prevention, detection, and investigation.
                    First, Federal regulations specify that “CMS reviews State and local
                    administration of the SCHIP plan through analysis of the State’s
                    policies and procedures, on-site reviews of selected aspects of agency
                    operation, and examination of samples of individual case records.”20
                    Second, CMS receives from States annual SCHIP reports which contain
                    prescribed program information that CMS can use for monitoring.21
                    Third, the Payment Error Rate Measurement program, which became
                    effective November 4, 2005, and was preceded by a series of CMS pilot
                    projects, is designed to measure improper SCHIP payments.22 In part
                    to facilitate CMS’s use of these tools for oversight of SCHIPs, Federal
                    law requires States to collect, maintain, and furnish program
                    information to enable CMS “to monitor State program administration
                    and compliance and to evaluate and compare the effectiveness of State
                    plans . . .”23


                    METHODOLOGY
                    Scope
                    To meet the study objectives, we examined fraud and abuse safeguards
                    in 6 of the 39 States that have all or part of their SCHIPs separate from
                    Medicaid.24 Within these 6 States, we examined fraud and abuse
                    safeguards established by 17 selected SCHIP health plans and other
                    contractors. Although States may use many of the methods and
                    procedures we examined to oversee additional issues related to program
                    integrity, our review focused primarily on the prevention, detection, and
                    investigation of suspected fraud and abuse cases. We also assessed
                    these States’ oversight of SCHIP contractors and CMS’s oversight of the
                    six selected SCHIPs regarding fraud and abuse.
                    Selection of States
                    We purposively selected six States with separate SCHIPs. Factors
                    considered for State selection included diversity in program design
                    (fully separate from Medicaid or a combination of separate and
                    Medicaid expansion programs), number of program enrollees, primary

 OEI-06-04-00380    FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S       3
I N T R O D        U C T          I O N


                    type of service delivery (managed care or fee-for-service), geographic
                    location, and States’ locations within CMS regions. The six selected
                    States are Iowa, Massachusetts, Michigan, New York, Pennsylvania,
                    and Texas. Within each of these States, we selected the 3 health plans
                    with the largest SCHIP enrollment (except Iowa, which contracts with
                    only 2 health plans), for a total of 17 health plans. The selected States
                    accounted for 31 percent of national enrollment in separate SCHIPs as
                    of December 2004.25 Appendix A contains a detailed description of the
                    six States and additional information about our study methodology.
                    Data Collection and Analysis
                    From each selected State and selected health plan, we requested
                    documents demonstrating their methods and procedures for
                    safeguarding the separate SCHIPs against fraud and abuse. We also
                    inquired about States’ use of SCHIP contractors to prevent, detect, and
                    investigate fraud and abuse, including States’ oversight of contractors,
                    and safeguards against fraud and abuse by health plans themselves.
                    From CMS, we requested copies of reports for compliance reviews it had
                    conducted of these six States since the inception of SCHIP, associated
                    review protocols, and State annual reports.

                    We received initial responses and documentation from the 6 States and
                    17 health plans from May to July 2005. We also received
                    documentation after interviews and other follow-up activities from July
                    to January 2006. Most data collection from CMS occurred in August
                    and September 2005.

                    We interviewed staff from the six States, from selected health plans,
                    from the CMS central office, and from each CMS regional office
                    responsible for oversight of these States. We conducted these telephone
                    interviews to clarify any questions about previously submitted
                    documents, to request additional documents when needed, and to
                    discuss the experiences and perceptions of staff regarding fraud and
                    abuse in separate SCHIPs. We also discussed preliminary findings and
                    an early draft of the report with CMS SCHIP officials during a meeting
                    in July 2006.

                    We reviewed documents and other information provided by respondents
                    to determine what safeguards and oversight mechanisms had been
                    established. For purposes of this report, the term “established” means
                    that we obtained documentation that, in our best judgment,
                    demonstrated that the mechanism was in place and available for use.



 OEI-06-04-00380    FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S        4
I N T R O D        U C T          I O N


                    Based on our review of documentation and interviews of key personnel,
                    we completed the following analyses:

                    o	      To assess State compliance with Federal requirements to
                            establish separate SCHIP fraud and abuse safeguards, we
                            determined what safeguards the six States and their SCHIP
                            contractors had established and assessed whether these
                            safeguards met applicable Federal requirements.

                    o	      To assess States’ oversight of separate SCHIP contractors
                            regarding fraud and abuse safeguards, we determined what
                            methods and procedures States had established for oversight,
                            whether State procedures met Federal requirements for State
                            oversight, and whether potential program vulnerabilities
                            existed.

                    o	      To assess CMS oversight of States’ separate SCHIPs, we
                            determined how frequently and to what extent CMS compliance
                            reviews and other CMS oversight mechanisms addressed fraud
                            and abuse issues.
                    Limitations
                    Because the 6 States and 17 SCHIP health plans were purposively
                    selected for review, findings and conclusions cannot be generalized
                    beyond these entities. Additionally, because measuring outcomes of
                    established procedures was beyond of the scope of the study, the report
                    does not draw conclusions regarding the effectiveness of these separate
                    SCHIPs’ fraud and abuse safeguards. Finally, although we made every
                    effort to obtain all relevant information and documentation for our
                    analysis, it is possible that States have established additional
                    procedures for which they did not provide documentation.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-06-04-00380    FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S        5
  F   I N D I N G        S
Δ         F I N D I N G S 


                                                                  Each of these States has met
     The six selected States met requirements for                 Federal requirements for
  prevention and detection of fraud and abuse by                  preventing and detecting fraud
assigning responsibility to SCHIP contractors that                and abuse in separate SCHIPs,
               have established such procedures                   largely by assigning
                                                                  responsibility for establishing
                        most fraud and abuse safeguards to SCHIP health plans or
                        administrative contractors. Federal requirements governing program
                        activities through which fraud and abuse might be prevented and
                        detected include beneficiary eligibility and enrollment, provider
                        enrollment, and detection of fraud and abuse. State contractors have
                        established safeguards that met the Federal requirements in these
                        areas.
                        Entities responsible for eligibility determinations have established
                        procedures to obtain required applicant information
                        Federal regulations require an SCHIP eligibility determination based
                        on criteria such as financial need, eligibility for Medicaid (which takes
                        precedence over SCHIP), and the existence of other health coverage.26
                        The six States have assigned responsibility for SCHIP enrollment
                        activities to administrative contractors (three), health plans (two), and
                        State staff (one). Regulations also require eligibility redetermination at
                        least every 12 months.27 Each entity responsible for determining
                        SCHIP eligibility in these States has established procedures that meet
                        State and Federal requirements. The responsible entities use
                        self-reported information from a standardized application (a combined
                        Medicaid/SCHIP application in five of these States)28 plus any
                        supporting documentation required by the State to meet eligibility
                        requirements. Entities in five of the States have procedures to
                        redetermine beneficiary eligibility every 12 months, and in the sixth
                        State, every 6 months.
                        Health plans in our review have established procedures to verify that
                        network providers meet criteria for participating in SCHIP
                        All six States rely on the SCHIP health plans to determine whether
                        providers in their networks meet standards for SCHIP participation.29
                        Federal regulations provide a number of criteria that physicians and
                        other providers must meet to participate in SCHIP and prohibit States
                        from making payments to providers who have been excluded from
                        participating in the Medicare and Medicaid programs.30 To meet these
                        requirements, the SCHIP health plans we reviewed have established a
                        variety of procedures, most commonly a formal enrollment process

      OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S        6
F   I N D I N G        S


                      through which they verify State licensure and check for certain criminal
                      convictions31 and exclusions (see Table 1). The 17 health plans that we
                      reviewed reenroll providers in their networks every 2 years (3 health
                      plans) or every 3 years (14 health plans).


                       Table 1. Provider Enrollment Activities of SCHIP Heath Plans We Reviewed

                                                                                                        Health Plans
                       Procedure To Check:                                                           With Procedure

                       State Licensure Boards                                                                      17

                       State Adverse Action Lists                                                                  17

                       OIG Exclusions                                                                              17

                       National Practitioner Data Bank                                                             15

                       Certain Criminal Convictions                                                                14

                       Provider Address [Onsite]                                                                   12

                       Healthcare Integrity Practitioner Data Bank                                                 10

                                            Source: OIG analysis of documentation from 17 SCHIP health plans in 6 States, 2006.


                      Health plans have a variety of techniques, data analysis tools, and
                      informational tips to satisfy requirements for fraud and abuse detection
                      The 6 States pay these 17 health plans on a capitated basis, i.e., a
                      predetermined amount for each SCHIP beneficiary. These health plans,
                      in turn, pay health care providers for SCHIP services. Although
                      Federal regulations require States to have methods and criteria for
                      identifying suspected fraud and abuse cases, the regulations do not
                      specify the procedures States should establish.32 Five of the six States
                      largely leave it to their health plans to determine the procedures to
                      establish for detection of fraud and abuse. One State was a notable
                      exception because its contract specifies a number of activities that
                      SCHIP health plans should establish to ensure that provider payments
                      are appropriate and to detect potential fraud and abuse.

                      The health plans that we reviewed have established a core set of
                      techniques for detecting fraud and abuse (see Table 2). Not all of these
                      health plans have established all detection procedures, but most have
                      multiple procedures, and a few other procedures were reported to be
                      under development during our study.



    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S                                        7
F   I N D I N G        S        





                       Table 2: Fraud and Abuse Detection Procedures and
                       Safeguards of SCHIP Heath Plans We Reviewed (N = 17)

                                                                                                            Health Plans
                                                                                   Health Plans With         Developing
                       Procedure or Safeguard                                             Procedure           Procedure
                       Targeted Claims Reviews                                                   17                       0

                       Telephone Hotline                                                         16                       0
                       Provider Verification of Beneficiary
                                                                                                 15                       1
                       Eligibility

                       Automated Prepayment Edits                                                15                       0

                       Utilization Review Staff                                                  13                       1

                       Random Sampling                                                           13                       0

                       Aberrant Billing Detection                                                11                       3

                       Error Rate Measurement                                                    11                       1

                       Fraud Reporting Information on Internet                                   10                       0

                                            Source: OIG analysis of documentation from 17 SCHIP health plans in 6 States, 2006


                      Although all SCHIP health plans we reviewed appear to have a variety
                      of data analysis tools that can be used for detecting fraud and abuse,
                      5 of the 17 health plans had software systems specifically designed for
                      fraud detection. Health plan staff explained that these fraud detection
                      software systems often use automated processes to analyze several
                      years’ worth of billing data and to identify the areas of greatest
                      vulnerabilities.

                                                               When cases of suspected fraud
       One of the six States has not met Federal
                                                               and abuse are detected, Federal
requirements for investigating suspected SCHIP                 regulations require States to
   fraud and abuse cases and referring cases to                conduct a preliminary
                                law enforcement                investigation or take other
                                                               action to determine whether a
                      full investigation is warranted. For cases that warrant more than
                                                      33

                      preliminary investigation, Federal regulations require States to
                      establish procedures for conducting full investigations, including
                      referral of cases to the appropriate law enforcement agencies if
                      necessary.34


    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S                                         8
F   I N D I N G 
S


                      Five of the six States have established procedures to meet Federal
                      investigation and referral requirements and one State has not.35 In the
                      State that is not in compliance with Federal requirements, SCHIP staff
                      reported that the State has not identified a State law enforcement
                      entity that will prosecute SCHIP-only fraud and abuse cases. SCHIP
                      staff in this State explained that, although there is a State unit
                      designated for investigating and referring SCHIP fraud and abuse
                      cases, this unit would not investigate cases involving only SCHIPs
                      because of the lack of a State entity to prosecute if fraud were
                      substantiated. Both State SCHIP staff and CMS regional office staff
                      were aware of this situation and the State’s noncompliance with Federal
                      regulations.
                      SCHIP health plans typically task designated staff to conduct preliminary
                      investigations, including identifying and developing suspicious cases
                      All six States assign responsibility for conducting preliminary
                      investigations to the separate SCHIP health plans and require health
                      plans to have written policies and procedures for detecting and
                      investigating fraud and abuse. Beyond the basic requirement to
                      investigate suspicious cases, additional requirements among these
                      States included that health plans designate specific staff to investigate
                      fraud and abuse cases (four States), periodically report their
                      investigation activities to SCHIP agencies (four States), and train staff
                      regarding fraud and abuse (two States).

                      Staff from health plans we reviewed reported that most fraud and abuse
                      investigation leads come from tips from employees, such as utilization
                      review staff, and tips from telephone hotlines. To investigate these
                      leads, 14 of the 17 health plans we reviewed assign preliminary
                      investigations to a special fraud unit or other designated health plan
                      personnel. Investigation procedures for these staffs typically involved a
                      general review of the case facts and analysis of relevant claims and
                      services. Of the three remaining health plans, two subcontract for
                      investigation services and one was in the process of obtaining these
                      services from a subcontractor at the time of our study.36
                      Staff assigned to other State agencies or departments are usually
                      responsible for full investigations of suspected SCHIP fraud and abuse
                      Staff in five of the six States clearly identified State agencies or
                      departments responsible for handling full investigations.37 However, as
                      previously mentioned, the responsible entity in one of these five States
                      does not investigate SCHIP-only cases. The sixth State listed entities to


    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S       9
F   I N D I N G        S


                      which fraud and abuse reports are to be made but did not specify which
                      State entity is responsible for investigating cases.

                      In three of the States, a Memorandum of Understanding (MOU) or an
                      Interagency Agreement governs the relationship between SCHIPs and
                      entities responsible for conducting investigations. These MOUs and
                      agreements typically specify responsibilities regarding investigations,
                      referrals to law enforcement, prosecution, and reporting between
                      parties. Three States do not have MOUs or agreements to govern the
                      relationship between the separate SCHIPs and the entity responsible
                      for conducting investigations. State staff in two of these States report
                      relying on health plans to conduct both preliminary and full
                      investigations for some cases of suspected fraud and abuse and to work
                      with local law enforcement.

                                                                 As mentioned, the six States
 Although oversight mechanisms in the six States                 have assigned many
address Federal requirements, they do not always                 responsibilities for prevention,
  enable States to know how well health plans are                detection, and investigation of
                   performing safeguard activities               fraud and abuse to SCHIP
                                                                 health plans and other
                      contractors. In these States, oversight mechanisms do not always allow
                      these States to know the extent to which SCHIP health plans are
                      performing safeguard activities. Further, State staff responsible for
                      investigating fraud and abuse in the six States report receiving few, if
                      any, referrals of such cases from their health plans. This is a possible
                      indication that safeguard responsibilities assigned to health plans are
                      not carried out as well as they need to be. For example, one State
                      reported having investigated 13 cases of suspected fraud and abuse by
                      separate SCHIP providers from 2001 to mid-2005, none of which had
                      been referred to State investigators by separate SCHIP health plans.
                      The most common State oversight mechanisms address areas specifically
                      required by Federal regulations
                      All six States have established mechanisms for conducting oversight of
                      SCHIP health plans and contractors (see Table 3). To ensure that
                      SCHIP health plans have administrative and management
                      arrangements or procedures that meet Federal requirements, all of
                      these States contractually require their SCHIP health plans to have
                      written fraud and abuse plans.38 All six States also include in their
                      contracts federally mandated requirements that SCHIP health plans



    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S        10
F   I N D I N G        S


                      attest to the accuracy of payment or claims data and provide
                      Government officials with access to these data.39


                       Table 3: Common Oversight Mechanisms Established by Six States

                                                                                                     States With
                       State Oversight Method                                                        Method
                       Health Plans Required To Have Written Fraud and Abuse
                                                                                                     6 40
                       Plans
                       Contracts Require Claims Accuracy Attestation and Access to
                                                                                                     6
                       Data

                       Monitoring of Summary Data Supplied by Health Plans                           6

                       State Hotlines for Complaints and Fraud Tips                                  5
                       Periodic Audits of SCHIP Beneficiary Eligibility and
                                                                                                     5
                       Enrollment*

                       Required Reporting of Health Plan Investigation Activities                    4 41

                       Verification of Provider Address [Onsite]                                     6
                       * One State does not assign beneficiary enrollment to contractors. Another State reported
                       it had not completed these audits for two of the three health plans we reviewed.
                                                                       Source: OIG analysis of documentation from 6 States, 2006.

                      To meet Federal requirements that States have methods to identify,
                      report, and verify the accuracy of claims for beneficiaries enrolled in a
                      separate SCHIP, the five States that assign beneficiary enrollment to
                      health plans or administrative contractors have procedures to
                      periodically conduct audits to verify appropriate enrollment.42 The one
                      State that enrolls beneficiaries itself has procedures to routinely
                      compare health plan enrollment data with its own records to identify
                      any discrepancies. Because SCHIP health plans are typically paid by
                      the six States based on the number of beneficiaries enrolled in the
                      plans, these beneficiary enrollment audits also serve as one of the
                      primary oversight mechanisms these States have established to meet
                      the Federal requirement to safeguard against fraud or abuse by health
                      plans themselves.
                      Current oversight does not always allow States to know how well SCHIP
                      health plans are performing safeguard activities in some critical program
                      areas
                      Our assessment of the primary oversight approaches these six States
                      use for the critical areas of fraud and abuse safeguard activities with
                      health plans identified the following concerns.



    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S                                           11
F   I N D I N G 
S


                      One State had not conducted all beneficiary eligibility audits. Although this
                      is generally one of the stronger areas for State oversight in these six
                      States, one State reported that, despite having procedures in place for
                      periodic beneficiary eligibility audits, it has never conducted such an
                      audit for two of its three SCHIP health plans included in our study.
                      This State relies on its health plans to enroll SCHIP beneficiaries.
                      Considering that these audits are a primary oversight mechanism
                      reported by this State to verify appropriate enrollment and accuracy
                      of payments to its health plans, failure to conduct beneficiary
                      enrollment audits leaves this State vulnerable to fraud and abuse.
                      States have few methods to verify provider enrollment procedures performed
                      by health plans. Although all six States rely on health plans to ensure
                      that providers enrolled in SCHIP meet participation rules, State
                      oversight mechanisms typically do not involve States’ verifying health
                      plan performance in this area. Two States had established protocols for
                      verifying health plan provider enrollment processes, but one had used
                      its procedures only for health plans that also participated in the
                      Medicaid program at the time of our study. Other common oversight
                      mechanisms established by these States include relying on health plan
                      accreditation by national organizations and sharing information with
                      other States about adverse actions taken against providers.
                      States have few mechanisms for oversight of health plans’ procedures for
                      detection of fraud and abuse in improper billing by providers. Although the
                      six States rely heavily on SCHIP health plans to detect potential
                      fraud and abuse by providers, these States have generally not
                      established oversight mechanisms to monitor this aspect of health
                      plan performance. State SCHIP staff in these States often expressed
                      their perceptions that potential fraud and abuse by providers is more
                      the concern of health plans than of the State. However, States also
                      reported that SCHIP health plans have referred very few cases of
                      suspected fraud and abuse by providers, suggesting that greater
                      oversight is needed.
                      States rely on self-reported information for oversight of health plan
                      investigations and referral activities. The six States rely to varying
                      degrees on SCHIP health plans to investigate and refer cases of
                      suspected fraud and abuse. The primary oversight mechanism
                      established by five of the States is to require health plans to
                      periodically report their investigation and referral activities,



    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S            12
F   I N D I N G 
S


                      including such items as the number and types of cases and referrals,
                      amounts of overpayments and recoveries, and other penalties.

                      Reliance on self-reported information does not allow States to know
                      whether, or how well, health plan staff are investigating cases of
                      suspected fraud and abuse.
                      States commonly use self-reported, aggregated data for monitoring health plan
                      services. The most common oversight mechanism for monitoring SCHIP
                      health plan service delivery, established by the six States, relies on
                      aggregated data self-reported by health plans. These data vary across
                      the States and include information about beneficiary complaints,
                      utilization of services, and/or beneficiary health data. Although four
                      States report requiring or receiving actual encounter data from SCHIP
                      health plans, only one State had established procedures for using such
                      data to monitor the services provided by health plans. Additionally, one
                      State sends an explanation-of-benefits notice to a random sample of
                      beneficiaries. Although these oversight mechanisms allow these States
                      to monitor some aspects of SCHIP health plan service delivery, few
                      include means to verify service delivery.
                      States have not implemented onsite reviews of the health plan fraud and
                      abuse plans. As previously mentioned, all six States require separate
                      SCHIP health plans to have written policies and procedures for
                      preventing, detecting, and investigating fraud and abuse.43 Four of
                      the six States had not adopted onsite reviews regarding fraud and
                      abuse safeguards for their separate SCHIPs. Two States reported
                      developing protocols for onsite reviews of health plans to verify
                      implementation of their fraud and abuse plans. However, none of
                      these States had formally conducted such a review at the time of our
                      study.44
                      State oversight regarding fraud and abuse safeguards may be inhibited by
                      dispersal of SCHIP oversight responsibilities within States and certain
                      perceptions expressed by State staff
                      Placement of State oversight functions with several agencies seems to
                      create confusion and possible gaps. In all six States, responsibility for
                      oversight of separate SCHIP fraud and abuse safeguards is dispersed
                      among several agencies. Across the six States, the SCHIP agencies
                      are most commonly responsible for oversight of beneficiary eligibility
                      and enrollment, whereas oversight of provider enrollment, detection
                      of fraud and abuse, and investigation and referrals are often the
                      responsibility of other State entities. Consequently, no single unit

    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S         13
F   I N D I N G 
S


                      within each of the six States had complete information about State
                      oversight of SCHIP contractors.

                      Coordination and communication among agencies that share SCHIP
                      oversight responsibilities in these States also appeared problematic.
                      To the extent that these problems are persistent or typical, successful
                      oversight will likely be affected. Coordination difficulties in one State
                      resulted in the submission of separate responses to our data collection
                      request from two different agencies, which sometimes provided
                      conflicting answers. Within two other States, different agencies
                      pointed to each other as the responsible entity for ensuring contractor
                      compliance with a particular Federal SCHIP requirement, suggesting
                      that neither group was conducting oversight. Indeed, in one of these
                      States, SCHIP staff were unaware that a contract compliance review
                      of their largest SCHIP health plan had never been conducted.
                      State staff indicate that their SCHIP has limited exposure to fraud and abuse.
                      State staff commonly expressed the belief that the capitated nature of
                      contracts with SCHIP health plans protects States from exposure to
                      fraud and abuse in provider billing, placing the risk instead on health
                      plans. Although capitated contracts may insulate States from the
                      costs of improper billing by providers during the current contract
                      period, health plans may increase capitated rates under subsequent
                      SCHIP contracts to account for any losses due to fraud and abuse.
                      State staff indicate that oversight of Medicaid health plans benefits the separate
                      SCHIP. Some SCHIP staff in these States noted that the separate
                      SCHIPs likely benefited from the more stringent standards and
                      oversight in the Medicaid program regarding fraud and abuse. For
                      example, States subject all Medicaid health plans to an annual External
                      Quality Review, including those health plans that participate in both
                      the Medicaid program and separate SCHIPs. However, Medicaid
                      oversight would seem to have minimal effect on separate SCHIP health
                      plans that do not also participate in Medicaid, which was true for 4 of
                      the 17 SCHIP health plans we examined. Further, potential benefits for
                      SCHIPs from Medicaid oversight of health plans that participate in both
                      programs would be dependent upon the extent and quality of the
                      Medicaid oversight itself.




    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S              14
F   I N D I N G        S        




CMS relies primarily on States for oversight of              The SCHIP statute allows CMS
SCHIP fraud and abuse safeguards, although it                discretion regarding Federal
                                                             oversight of separate SCHIP
 has completed some onsite reviews of States
                                                             fraud and abuse safeguards,
                      neither prescribing nor prohibiting particular oversight activities. In
                      interviews, CMS officials expressed that, rather than being
                      prescriptive regarding oversight of fraud and abuse activities, the
                      SCHIP’s statute and regulations focus on “programmatic oversight at
                      the Federal level.” According to CMS officials, SCHIP has limited
                      exposure to fraud and abuse because Federal allotments are capped
                      and managed care arrangements provide protections against fraud
                      and abuse. Therefore, CMS officials report that CMS relies primarily
                      on States for oversight of separate SCHIP fraud and safeguards.

                      Despite CMS’s reliance on States for oversight, it has conducted onsite
                      reviews for monitoring separate SCHIP fraud and abuse safeguards. In
                      2002, CMS produced and distributed to its regional offices guidance for
                      conducting these onsite reviews. In this document, we identified
                      14 topics related to fraud and abuse that could be reviewed during
                      onsite reviews of SCHIPs.45
                      From 1997, when SCHIP started, to August 2005, CMS conducted a
                      total of 11 onsite reviews of 5 of our 6 States that examined at least
                      1 fraud and abuse-related topic. Ten of the eleven CMS onsite reviews
                      of these States examined four or fewer issues related to SCHIP fraud
                      and abuse, most often those involving beneficiary eligibility and
                      enrollment processes.

                      CMS does not always require that corrective action plans be developed
                      to address problems noted during onsite SCHIP reviews. CMS cited
                      four of the five reviewed States for having insufficient procedures in at
                      least one of the fraud and abuse-related issues. For three of these
                      States, CMS staff reported using informal means, such as telephone
                      conversations or e-mails, to follow up on concerns raised by the reviews.
                      CMS staff reported requiring the one remaining State to execute a
                      corrective action plan to address the issues with 10 fraud and
                      abuse-related Federal regulations with which CMS found the State to
                      be noncompliant. Although CMS’s onsite review occurred in 2003, our
                      study found that as of 2005 this State remained noncompliant with
                      Federal requirements for full investigation and referral of suspected
                      SCHIP fraud and abuse cases. State SCHIP staff provided documents
                      indicating that, although its corrective action plan did address many


    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S      15
F   I N D I N G 
S


                      issues of noncompliance cited by CMS, it did not fully address the
                      investigation and referral issue.

                      CMS has not always followed up on the problems in subsequent
                      reviews. For the four States with more than one onsite review, the CMS
                      reviewers typically did not reevaluate problems identified in prior
                      reviews, even when prior review reports did not indicate that States had
                      corrected the problems. CMS staff responsible for determining the
                      onsite review topics reported that they typically base decisions about
                      onsite review topics on their familiarity with State programs,
                      discussions with State staff, CMS initiatives, and annual report data,
                      but not necessarily on reevaluating past problems.




    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S      16
Δ   R E C O M M E N D A T I O N S                                                   


                  With one exception, the six States we reviewed comply with Federal
                  requirements regarding the establishment of fraud and abuse
                  prevention, detection, and investigation safeguards in their separate
                  SCHIPs. One of the six States does not meet Federal requirements for
                  investigating cases of suspected fraud and abuse and referring cases to
                  law enforcement.

                  These States rely extensively on their SCHIP contractors to prevent,
                  detect, and investigate fraud and abuse. However, the current level of
                  State oversight of SCHIP contractors does not always provide States
                  with the means to know how well contractors are performing on some
                  critical fraud and abuse matters, including provider enrollment,
                  detection of fraud and abuse, investigation and referral to law
                  enforcement, service delivery to beneficiaries, and execution of
                  contractor fraud and abuse plans. It appears that a number of factors
                  may inhibit State oversight of SCHIP contractors regarding fraud and
                  abuse safeguards.

                  CMS reports that it relies primarily on States for oversight of SCHIP
                  fraud and abuse safeguards. CMS has conducted onsite compliance
                  reviews of separate SCHIPs in five of the six States we reviewed.
                  However, CMS’s reviews typically examined only a few of the areas we
                  identified in CMS guidance documents as related to fraud and
                  abuse safeguards. Additionally, CMS has not typically required States
                  to develop formal corrective action plans in response to problems noted
                  in its reviews.

                  To address the one instance of noncompliance found in this report, as
                  well as other potential areas of improvement, CMS should:
                  Ensure That the Noncompliant State Institutes Procedures To Meet Federal
                  Requirements for Investigating Cases of Suspected SCHIP Fraud and Abuse
                  and Referring Cases to Law Enforcement
                  Staff in one State reported that it has not identified a law enforcement
                  entity that will accept fraud cases involving only SCHIP. Therefore,
                  that State’s designated investigation unit does not investigate such
                  cases or refer them to law enforcement, as required. CMS should work
                  with State officials to bring the State into compliance with Federal
                  regulations on this issue. Options may include additional efforts to
                  identify a State law enforcement entity to accept SCHIP fraud cases or
                  development of procedures for the State to refer cases to Federal law
                  enforcement entities, such as OIG or the Department of Justice, when
                  necessary. Although this issue of noncompliance affected only one of the

OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S       17
R   E C O        M M E N D A T               I O N           S


                      six States, CMS should determine whether all States with separate
                      SCHIPs have appropriate investigation and referral procedures.
                      Take Steps To Strengthen Federal and State Oversight of Separate SCHIPs’
                      Fraud and Abuse Safeguards
                      CMS relies heavily on States for oversight of fraud and abuse
                      safeguards for separate SCHIPs. In turn, these six States rely on
                      SCHIP contractors to prevent, detect, and investigate potential fraud
                      and abuse. However, our findings indicate that the current Federal and
                      State oversight approaches have vulnerabilities.

                      Options CMS should consider to strengthen its oversight of separate
                      SCHIPs include:

                      o	      Establishing a specific frequency for onsite reviews and a basic
                              set of required review elements to ensure that SCHIP fraud and
                              abuse safeguards are routinely examined;

                      o	      Requiring States to submit corrective action plans in response to
                              problems noted during reviews that involve noncompliance with
                              Federal regulations or other serious fraud and abuse-related
                              vulnerabilities to better support problem resolution; and

                      o	      Requiring States to submit, in their annual SCHIP reports, data
                              about separate SCHIP fraud and abuse activities, e.g., the
                              number of cases investigated and/or referred.

                      Options CMS should consider to strengthen States’ oversight of SCHIP
                      contractors include:

                      o	      Providing training and written guidance to States on fraud and
                              abuse oversight, including identifying what a full State
                              oversight effort might encompass;

                      o	      Providing technical assistance to States on how to implement
                              more direct methods for assessing contractor performance; and

                      o	      Facilitating forums for sharing information among States,
                              including sharing practices that States find effective.


                      AGENCY COMMENTS
                      In its comments to the draft report, CMS stated that it does not dispute
                      the findings in the report. However, CMS suggested clarifying language
                      to emphasize that the SCHIP statute is not prescriptive in describing
                      Federal oversight of fraud and abuse. CMS expressed that the SCHIP
                      “statute and regulations focus on programmatic oversight at the Federal

    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S        18
R   E C O        M M E N D A T               I O N           S


                      level.” CMS also noted its recent efforts completed or underway to
                      assist States in strengthening fraud and abuse efforts. The efforts
                      described are consistent with our second recommendation. In its
                      comments, CMS did not specifically respond to our first
                      recommendation.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      We made changes to the final report to clarify that the SCHIP statute
                      allows CMS discretion regarding its oversight of SCHIP fraud and
                      abuse activities, neither prescribing nor prohibiting particular oversight
                      activities. We also included the full text of CMS comments in
                      Appendix B, which includes CMS’s descriptions of its recent efforts to
                      assist States in strengthening fraud and abuse efforts.




    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S       19
Δ       E N D N O T E S




142 U.S.C. §§ 1397aa–1397jj; Social Security Act, §§ 2101–2110; Pub. Law. No. 105-33, 

Subtitle J. 


2   42 CFR § 457.900(c). 


3   42 CFR § 431.800. 


442 U.S.C. § 1395ddd(g); Social Security Act, § 1893(g); Pub. Law No. 109-171, Title VI, 

Subtitle A, Ch. 3 § 6034(d)(1). 


5   42 CFR § 456.3. 


6   42 CFR § 1007.11. 


7   42 CFR § 438.310. 


842 U.S.C. § 1396u-6; Social Security Act, § 1936; Pub. Law No. 109-171, Title VI, Subtitle A, 

Ch. 3 § 6034(a)(2). 


9   42 CFR § 457.915(a). 


10   42 CFR § 457.915(b). 


11   42 CFR §§ 457.350(a)(1) and (2); 42 CFR 457.310; 42 CFR 457.320. 


12   42 CFR § 457.935. 


13   42 CFR § 457.915(a)(1); 42 CFR § 457.955(a). 


14   42 CFR § 457.915(c); 42 CFR § 457.925; 42 CFR 457.930. 


15   42 CFR § 457.353; 42 CFR § 457.950; 42 CFR § 457.955; 42 CFR § 457.980.


16   42 CFR § 457.200; 42 CFR § 457.720; 42 CFR § 457.750(a) and (b). 


17   42 CFR § 457.955; 42 CFR § 457.915; 42 CFR § 457.980. 


18   42 CFR § 457.950; 42 CFR § 457.955.


19   42 CFR § 457.915. 


20   42 CFR § 457.200(a). 


21   42 CFR § 457.750. 





    OEI-06-04-00380     FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S      20
22   42 CFR § 431.970; 42 CFR § 457.720

23   42 U.S.C. § 1397gg(b)(1); Social Security Act, § 2107(b)(1).

24 Based on the most recent information from the CMS Web site, 39 States have either fully

separate SCHIPs or combination SCHIP/Medicaid programs. CMS, “State Children’s Health
Insurance Program Plan Activity as of August 9, 2005.” Available online at
http://www.cms.hhs.gov/LowCostHealthInsFamChild/downloads/SCHIPStatePlan
ActivityMap.zip. Accessed April 13, 2006.

25 Based on OIG’s analysis of health plan enrollment information obtained from States and

SCHIP enrollment data from the 2004 annual SCHIP report.

26   42 CFR §§ 457.350(a)(1) and (2); 42 CFR § 457.310; 42 CFR § 457.320.

27   42 CFR § 457.320(e)(2).

28The sixth State does not use a combined application, but has established procedures for
periodic data matches between SCHIP and Medicaid enrollment files. Two other States also
established procedures for SCHIP/Medicaid matches, in addition to their procedures for
combined applications.

29Additionally, State staff in one of the six States are responsible for screening providers
participating in the Primary Care Case Management portion of the SCHIP. Procedures
established for this staff are similar to those of the selected SCHIP health plans discussed in
this section.

30   42 CFR §§ 457.935(a) and (b).

31 Health plans we reviewed used a variety of methods to check for criminal convictions, such
as checks of various databases that contain criminal conviction data, reliance on State
licensure boards that check for criminal convictions, and/or law enforcement checks for
criminal convictions.

32   42 CFR § 457.915(a)(1).

33   42 CFR § 457.925.

34   42 CFR § 457.930.

35At the time of our review, one of these five States had recently drafted procedures for
investigating cases of potential fraud and abuse by beneficiaries, and investigative staff
reported that they had not yet investigated such a case. By contrast, procedures for
investigating cases of potential fraud and abuse by providers appeared to have been long in
place, and staff reported conducting several investigations in recent years.




 OEI-06-04-00380       FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S        21
36This health plan had not yet finalized the contract for these services. Staff from this small
SCHIP health plan reported that, in the meantime, staff were “doing the best we can” to
investigate cases.

37 These entities include law enforcement agencies (attorneys general, inspectors general),

Medicaid Fraud Control Units, and investigative branches of the State insurance and health
agencies.

38 42 CFR § 457.955; according to minimum Federal requirements, these arrangements must:

(1) enforce compliance with all applicable Federal and State standards, (2) prohibit
unsolicited personal contact with potential enrollees, and (3) include a mechanism for
reporting information on known violations of law to appropriate Government officials. In one
State, fraud and abuse plans became required of separate SCHIP health plans with fewer
than 60,000 beneficiaries during our study period in January 2006. Previously, this was a
State requirement only for separate SCHIP health plans with 60,000 beneficiaries or more.

39   42 CFR § 457.950.

40One State had recently begun to require development and submission of fraud and abuse
plans by separate SCHIP health plans with fewer than 60,000 beneficiaries effective in
January 2006 during our study period.

41One State had recently begun to require reporting investigation activities by separate
SCHIP health plans with fewer than 60,000 beneficiaries effective in January 2006 during
our study period.

42   42 CFR § 457.980.

43One State had recently begun to require development and submission of fraud and abuse
plans by separate SCHIP health plans with fewer than 60,000 beneficiaries effective in
January 2006 during our study period.

44One State reported that it had conducted an onsite review of Medicaid fraud and abuse
plan implementation at two health plans we reviewed in our selection of States. These two
health plans had participated in both the State Medicaid program and the separate SCHIP
program.

45CMS, “Title XXI, State Children’s Health Insurance Program Regional Office Monitoring
Handbook,” 2002. The handbook uses the term “program integrity” to refer to the issues we
examined and groups them into five areas: beneficiary eligibility, provider enrollment,
claims validity, use of managed care entities, and case referral and investigation. Each of
these areas has subissues, for a total of the following 14 potential issues:

General: Ensuring State Processes for Detecting Program Fraud and Abuse
   1. Procedures for detecting fraudulent or abusive activity
   2. Assignment of program integrity responsibilities to staff




 OEI-06-04-00380     FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S         22
Beneficiary Eligibility: Ensuring the Integrity of the Eligibility Determination Process
   3.	 Eligibility standards
   4.	 Procedures for screening applicant children
   5.	 Policies for verifying eligibility
   6.	 Procedures for discouraging substitution of SCHIP for private coverage
   7.	 Requirements for reporting changes in circumstance that affect eligibility
   8. Policies for redetermining eligibility
Provider Enrollment: Ensuring the Legitimacy of Healthcare Providers [Practitioners]
   9.	 Procedures to ensure that providers excluded from Medicare/Medicaid program
        participation do not receive payment
   10. Application of Title XIX [Medicaid] provider enrollment provisions
Program Claims: Ensuring the Accuracy of Claims
   11. Systems to identify, report, and verify the accuracy of claims
Case Referral and Investigation: State Management of Suspected Cases of Fraud and Abuse
   12. Procedures for conducting preliminary case investigations
   13. Procedures for referring cases to State program integrity staff
   14. Procedures for State program integrity staff for conducting a full investigation or
        referring suspected cases to law enforcement




OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S       23
Δ    A P P E N D I X                    A      


                  Expanded Methodology
                  Scope. Thirty-nine States had some part of their State Children’s
                  Health Insurance Program (SCHIP) separate from Medicaid as of
                  January 2005. We examined fraud and abuse safeguards in 6 of these
                  39 States. While many of the methods and procedures examined may
                  be used by States for additional types of program integrity activities,
                  our review focused primarily on the prevention, detection, and
                  investigation of suspected fraud and abuse. Within each State, we
                  examined safeguards established by States and by their SCHIP health
                  plans and other contractors. We also assessed States’ oversight of these
                  contractors, and Centers for Medicare & Medicaid Services’ (CMS)
                  oversight of the six SCHIPs.
                  Selection of States. We purposively selected 6 of the 39 States with
                  separate SCHIPs. Factors considered for State selection included
                  diversity in program design (fully separate from Medicaid or
                  combination programs), number of program enrollees, primary type of
                  service delivery (managed care or fee-for-service), geographic location,
                  and States’ locations within CMS regions. To prepare for the possibility
                  of nonresponse, we selected a seventh State. Subsequently, one State
                  could not provide all requested information and was eliminated, leaving
                  six selected States.

                  The six selected States are Iowa, Massachusetts, Michigan, New York,
                  Pennsylvania, and Texas (see Table A1).

                  Within each of the six States, we selected the 3 health plans with the
                  largest separate SCHIP enrollment (except Iowa, which contracts with
                  only 2 SCHIP health plans), for a total of 17 health plans. Size of
                  reviewed health plans ranged from 622 to 85,229 SCHIP beneficiaries at
                  the time of our study.




OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S     24
A   P   P E N D       I X         A        





                        Table A1. Provider Enrollment Activities of SCHIP Heath Plans We Reviewed
                                                                                                               Total FY 2005
                                                                                          Separate SCHIP
                       Selected States                  Program Type1                                   1     Federal SCHIP
                                                                                             Enrollment
                                                                                                            Funds (millions)2
                       Iowa                                        Combined                       18,873               $    28

                       Massachusetts                               Combined                       21,382               $    59

                       Michigan                                     Separate                      37,350               $ 111

                       New York                                    Combined                      332,464               $ 270

                       Pennsylvania                                 Separate                     127,259               $ 131

                       Texas                                        Separate                     335,751               $ 450

                       Totals                                                                     873,079              $ 1,049

                       Percentage of national separate SCHIP enrollment                                                    31%

                       Percentage of Federal SCHIP funds in the six States                                                 26%
                       1
                           As of Fiscal Year 2005 (first quarter), http://www.cms.hhs.gov.

                       2
                           CMS Web site http://www.cms.hhs.gov/schip/about-SCHIP.asp, accessed 10/5/2005.


                                               Source: OIG analysis of documentation from 17 SCHIP health plans in 6 States, 2006.

                      Data Collection. Because little was previously known about separate
                      SCHIP fraud and abuse safeguards, we reviewed the following
                      literature to identify safeguards used in the Medicaid program:

                      o	        CMS, “Review of State Medicaid Program Integrity Procedures:
                                National Report,” 2002;

                      o	        CMS, “Resource Guide of State Fraud and Abuse Systems,”
                                2001;

                      o	        CMS, “Guidelines for Addressing Fraud and Abuse in Medicaid
                                Managed Care,” 2000;

                      o	        CMS, “Guidance and Best Practices Relating to the States’
                                Surveillance and Utilization Review Functions,” undated;

                      o	        U.S. Government Accountability Office (GAO), “Medicaid
                                Program Integrity: State and Federal Efforts To Prevent and
                                Detect Improper Payments,” GAO-04-707, July 2004;

                      o	        GAO, “Medicaid: State Efforts To Control Improper Payments
                                Vary,” GAO-01-662, June 2001; and


    OEI-06-04-00380   FRAUD    AND   ABUSE SAFEGUARDS    IN   S E PA R AT E S C H I P S                                       25
A   P   P E N D       I X       A


                      o	      U.S. Department of Health & Human Services, Office of
                              Inspector General, “State Medicaid Fraud Control Units:
                              Annual Report,” 2003.

                      Identifying safeguards used in the Medicaid program was useful
                      because, although SCHIP and Medicaid are different programs, they
                      both provide health care coverage to low-income populations through a
                      Federal/State partnership. Further, because Medicaid is a more mature
                      program than SCHIP, States have more experience in safeguarding
                      Medicaid against fraud and abuse. We used information gained from
                      the literature review to develop the data collection instruments and
                      interview protocols, and to follow up with respondents regarding
                      separate SCHIP fraud and abuse safeguards.

                      We used a structured data collection instrument to request State and
                      health plan documentation for the methods and procedures established
                      to safeguard the separate SCHIPs against fraud and abuse.
                      Specifically, we asked for information and documentation from States
                      and health plans about safeguards for beneficiary eligibility and
                      enrollment, provider enrollment, detection of fraud and abuse in
                      provider billing, and investigation and referral of suspected fraud and
                      abuse cases. We also inquired about States’ use of SCHIP contractors to
                      prevent and detect fraud and abuse, including States’ oversight of
                      contractors and safeguards against fraud and abuse by managed care
                      organizations themselves.

                      We received initial responses and documentation from the 6 selected
                      States and 17 health plans from May to July 2005. We also received
                      documentation after interviews and other followup from July to January
                      2006.
                      Data collection from CMS occurred from August to September 2005. We
                      obtained copies of CMS reports related to onsite compliance reviews
                      that had been conducted in the six States since the inception of SCHIP,
                      associated review protocols, and SCHIP annual reports.
                      Document Reviews, Interviews, and Analyses. We reviewed documents by
                      States and health plans to identify what safeguards and oversight
                      mechanisms had been established, when they were established, and
                      what entity was responsible for them. Where applicable, we determined
                      whether the established safeguards and oversight mechanisms met
                      Federal requirements for separate SCHIPs.




    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S    26
A   P   P E N D       I X       A


                      For purposes of this report, the term “established” means that we
                      obtained documents that, in our best judgment, demonstrated that the
                      method or procedure was set up and available for use. To judge
                      whether documents demonstrated that safeguards and oversight
                      mechanisms had been established, we looked for documents that would
                      indicate a level of readiness beyond initial development, including such
                      items as corporate or departmental procedures. For States, we also
                      asked for documentation demonstrating whether oversight mechanisms
                      had been put into use. For example, if a State reported methods for
                      conducting onsite reviews of contractor fraud or abuse plans, we asked
                      for copies of the review protocols and reports associated with the latest
                      reviews of each health plan we examined.

                      We considered respondents to have established safeguards or oversight
                      mechanisms—as long as documentation supported that the method was
                      available for use—even if documents did not demonstrate that the
                      methods were actually used. Whenever we learned that respondents
                      were still developing processes, or had not fully implemented
                      procedures, we noted those conditions in the report as well.

                      Whenever the safeguards or oversight mechanisms reportedly
                      established by the six States or health plans were not readily apparent
                      in the documents submitted, we followed up on the items during
                      interviews with staff from the States and health plans we reviewed,
                      often requesting additional documentation. In addition, we interviewed
                      CMS central and regional office staffs responsible for oversight of these
                      States. Interviews allowed verification and clarification of document
                      review findings. Interviews of all respondents used standardized
                      questions to inquire about additional topics not included in data
                      collection instruments, such as inquiries about staff perceptions and
                      experiences with fraud and abuse in their separate SCHIPs.

                      As mentioned, we examined published reports about fraud and abuse
                      safeguards in the Medicaid program to inform our data collection
                      instruments. We specifically asked States and health plans about
                      several of the techniques identified in these reports, along with more
                      general inquiries about all their fraud and abuse safeguards. Our
                      analysis considered all the safeguards and oversight mechanisms
                      documented by States and health plans including, but not limited to,
                      techniques listed in the initial data collection instruments.

                      In some cases, our analysis used more inclusive definitions of
                      techniques than those identified during our literature review and

    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S      27
A   P   P E N D       I X       A


                      contained in the survey instruments. For example, the initial data
                      collection instrument specifically asked about “criminal background
                      checks” as a provider enrollment safeguard. One report we reviewed
                      described this safeguard as requiring physicians and other providers to
                      supply their fingerprints for a law enforcement agency to conduct a
                      check of criminal history.1 Federal regulations require exclusion of
                      individuals who have been convicted of certain crimes, but do not
                      specify what methods States must use to meet this requirement.2 To
                      determine whether a respondent had met the separate SCHIP Federal
                      requirement regarding certain crimes, our analysis also considered
                      safeguards such as checks of various databases that contain criminal
                      conviction data, e.g., the Healthcare Integrity and Protection Data
                      Bank, and databases maintained by some of the State licensure boards.

                      In another example, we asked respondents about “routinely scheduled
                      programs that identify aberrant claims or billing practices.” Our
                      analysis considered all documented aberrant billing detection
                      techniques, whether routinely scheduled or otherwise.

                      Based on our review of documentation and interview results, we
                      completed the following analyses:

                      o       To determine the extent to which States have established
                              methods and procedures to meet Federal requirements
                              regarding fraud and abuse, we determined what safeguards the
                              six States (and their SCHIP contractors when these
                              responsibilities were delegated) had established, and assessed
                              whether these safeguards met applicable Federal requirements.

                      o       To assess States’ oversight of separate SCHIP contractors
                              regarding fraud and abuse, we determined the methods and
                              procedures States had established for oversight, whether State
                              procedures met Federal requirements for State oversight, and
                              whether gaps or potential program vulnerabilities existed.

                      o       To assess CMS oversight of separate SCHIPs regarding fraud
                              and abuse, we determined how frequently and to what extent
                              CMS compliance reviews and other CMS oversight mechanisms
                              covered fraud and abuse issues.


                      1 CMS, “Review of State Medicaid Program Integrity Procedures: National
                      Report,” 2002, p. 8.
                      2 42 CFR § 457.935(b).




    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S           28
                  Limitations. Because the 6 States and 17 SCHIP health plans were
                  purposively selected for review, findings and conclusions cannot be
                  generalized beyond these entities. Additionally, because measuring
                  outcomes of established procedures was beyond of the scope of the
                  study, the report does not draw conclusions regarding the effectiveness
                  of separate SCHIP fraud and abuse safeguards. Finally, while we made
                  every effort to obtain all relevant information and documentation for
                  our analysis, it is possible that States have established additional
                  procedures for which they did not provide documentation.




OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S    29
Δ   A P P E N D I X                     B

                  Agency Comments




OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S   30 

A   P   P E N D       I X       B         





    OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S   31 

Δ      A C K N O W L E D G E M E N T S                                              




                  This report was prepared under the direction of Kevin G. Golladay,
                  Regional Inspector General for Evaluation and Inspections in the Dallas
                  regional office. Other principal Office of Evaluation and Inspections
                  staff who contributed include:

                  Blaine Collins, Team Leader
                  Deborah McGurk, Project Leader

                  Deborah Cosimo, Program Analyst

                  Ruth Ann Dorrill, Program Analyst

                  Alan Levine, Program Specialist

                  Elise Stein, Director, Public Health and Human Services Branch

                  Barbara Tedesco, Mathematical Statistician




OEI-06-04-00380   FRAUD   AND   ABUSE SAFEGUARDS   IN   S E PA R AT E S C H I P S       32
